                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                  601 E AST 12 T H S TREET, R OOM 0429
                                                                           K ANSAS C ITY , MO 64106

April 3, 2012

Report Number: A-07-12-00378

Mr. Peter S. Moore
Vice President of Government Programs
GHI Medicare
25 Broadway
New York, NY 10004

Dear Mr. Moore:

Enclosed is the U.S. Department of Health and Human Services, Office of Inspector General
(OIG), final report entitled Review of the Pension Segmentation Requirements for the
EmblemHealth Services Company, LLC, Employees’ Retirement Plan at Group Health
Incorporated for the Period of January 1, 2008, to January 1, 2009. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-12-00378
in all correspondence.

                                             Sincerely,


                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services
Enclosure
Page 2 – Mr. Peter S. Moore


Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
 Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




     REVIEW OF THE PENSION
 SEGMENTATION REQUIREMENTS FOR
   THE EMBLEMHEALTH SERVICES
    COMPANY, LLC, EMPLOYEES’
RETIREMENT PLAN AT GROUP HEALTH
 INCORPORATED FOR THE PERIOD OF
JANUARY 1, 2008, TO JANUARY 1, 2009



                        Daniel R. Levinson
                         Inspector General

                           April 2012
                          A-07-12-00378
                            Office of Inspector General
                                              http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the health
and welfare of beneficiaries served by those programs. This statutory mission is carried out through a
nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with its
own audit resources or by overseeing audit work done by others. Audits examine the performance of HHS
programs and/or its grantees and contractors in carrying out their respective responsibilities and are intended to
provide independent assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress, and
the public with timely, useful, and reliable information on significant issues. These evaluations focus on
preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of departmental
programs. To promote impact, OEI reports also present practical recommendations for improving program
operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department of
Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI often
lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In connection
with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other guidance to the
health care industry concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


     THIS REPORT IS AVAILABLE TO THE PUBLIC
               at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Group Health Incorporated (GHI), an EmblemHealth Company, administered Medicare Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS). These contracts terminated on July 18, 2008, but GHI continues to administer
Medicare operations under a Coordination of Benefits contract with CMS.

During our audit period, GHI had three defined benefit pension plans: the GHI Local 153
Pension Plan; the GHI Cash Balance Pension Plan; and the EmblemHealth Services Company,
LLC, Employees’ Retirement Plan. This report will address the pension assets for the
EmblemHealth Services Company, LLC, Employees’ Retirement Plan only.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Accordingly, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413.

OBJECTIVE

Our objective was to determine whether GHI complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when updating the Medicare segment’s
pension assets from January 1, 2008, to January 1, 2009.

SUMMARY OF FINDING

Contrary to Federal requirements and the Medicare contracts’ pension segmentation
requirements, GHI did not update the Medicare segment pension assets from January 1, 2008, to
January 1, 2009. We updated the Medicare segment pension assets from January 1, 2008, to
January 1, 2009, and identified Medicare segment pension assets of $489,218 as of
January 1, 2009. Accordingly, GHI understated the Medicare segment pension assets by
$489,218.

RECOMMENDATION

We recommend that GHI recognize $489,218 as the Medicare segment pension assets as of
January 1, 2009.




                                                 i
AUDITEE COMMENTS

In written comments on our draft report, GHI agreed with our recommendation.

GHI’s comments are included in their entirety as Appendix B.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION.....................................................................................................................1

          BACKGROUND ............................................................................................................1
              Group Health Incorporated and Medicare ..........................................................1
              Federal Requirements .........................................................................................1
              Pension Segmentation .........................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ..........................................................2
               Objective .............................................................................................................2
               Scope...................................................................................................................2
               Methodology .......................................................................................................2

FINDING AND RECOMMENDATION ................................................................................3

          UPDATE OF MEDICARE SEGMENT PENSION ASSETS........................................4
              Federal Requirements .........................................................................................4
              Medicare Segment Pension Assets Not Updated................................................4

          RECOMMENDATION ..................................................................................................5

          AUDITEE COMMENTS................................................................................................5

APPENDIXES

    A: STATEMENT OF MARKET VALUE OF PENSION ASSETS FOR THE
       EMBLEMHEALTH SERVICES COMPANY, LLC, EMPLOYEES’ RETIREMENT
       PLAN AT GROUP HEALTH INCORPORATED FOR THE
       PERIOD OF JANUARY 1, 2008, TO JANUARY 1, 2009

    B: AUDITEE COMMENTS




                                                                    3
                Glossary of Abbreviations and Acronyms

CAS   Cost Accounting Standards
CMS   Centers for Medicare & Medicaid Services
FAR   Federal Acquisition Regulation
GHI   Group Health Incorporated
WAV   weighted average value




                                    4
                                            INTRODUCTION

BACKGROUND

Group Health Incorporated and Medicare

Group Health Incorporated (GHI), an EmblemHealth Company, administered Medicare Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS). These contracts terminated July 18, 2008, but GHI continues to administer
Medicare operations under a Coordination of Benefits contract with CMS. GHI also performs
Medicare work as a subcontractor on the Medicare Secondary Payer Recovery and Retiree Drug
Subsidy contracts.

During our audit period, GHI had three defined benefit pension plans: the GHI Local 153
Pension Plan;1 the GHI Cash Balance Pension Plan;2 and the EmblemHealth Services Company,
LLC, Employees’ Retirement Plan. Effective August 31, 2003, benefits accrued under the Local
153 Pension Plan for management employees were frozen at their August 31, 2003, levels. On
September 1, 2003, GHI established the GHI Cash Balance Pension Plan for management
employees. Employees from the GHI Local 153 plan were given the option to elect participation
in the GHI Cash Balance Plan. All active employees elected participation in the GHI Cash
Balance Pension Plan and continued to earn a benefit similar to the benefit earned under the GHI
Local 153 Pension Plan.

Effective January 1, 2008, GHI froze the GHI Cash Balance Pension Plan to new entrants and
future benefit accruals. GHI employees were given an opportunity to elect participation in the
EmblemHealth Services Company, LLC, Employees’ Retirement Plan, effective
January 1, 2008. All active employees elected participation in the EmblemHealth Services
Company, LLC, Employees’ Retirement Plan and continued to earn a benefit similar to the
benefit earned under the GHI Cash Balance Pension Plan. This report will address the pension
assets for the EmblemHealth Services Company, LLC, Employees’ Retirement Plan only.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare
contracts.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.


1
 We separately reviewed the pension segmentation requirements for the Local 153 Pension Plan at GHI
(A-07-11-00358, issued July 14, 2011).
2
 We are separately reviewing the pension segmentation requirements for the Cash Balance Pension Plan at GHI
(A-07-12-00374).

                                                       1
CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Additionally, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413. In claiming costs, contractors must follow cost
reimbursement principles contained in the FAR, CAS, and the Medicare contracts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether GHI complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when updating the Medicare segment’s
pension assets from January 1, 2008, to January 1, 2009.

Scope

We reviewed GHI’s identification of its Medicare segment. Achieving our objective did not
require us to review GHI’s overall internal control structure. We reviewed controls relating to
the identification of the Medicare segment and the update of the segment’s assets to ensure
adherence to the Medicare contracts, CAS 412, and CAS 413.

We performed fieldwork at GHI in New York, New York, during September 2008 and
July 2010.

Methodology

To accomplish our objective, we did the following:

   •    We reviewed the portions of the FAR, CAS, and Medicare contracts applicable to this
        audit.

   •    We reviewed the annual actuarial valuation reports prepared by GHI’s actuarial
        consulting firms, which included the pension plan’s assets, liabilities, normal costs,
        contributions, benefit payments, investment earnings, and administrative expenses. We
        used this information to calculate the Medicare segment assets.

   •    We obtained and reviewed the pension plan documents and Department of Labor/Internal
        Revenue Service Forms 5500 (DOL/IRS 5500) used in calculating the Medicare segment
        assets.

                                                 2
   •   We interviewed GHI staff responsible for identifying the Medicare segment to determine
       whether the segment was properly identified in accordance with the Medicare contracts.

   •   We reviewed GHI’s accounting records to verify the segment identification and benefit
       payments made to the Medicare segment.

   •   We provided the CMS Office of the Actuary with the actuarial information necessary for
       it to calculate the Medicare segment pension assets from January 1, 2008, to
       January 1, 2009.

   •   We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of GHI’s pension costs claimed for
Medicare reimbursement, to be issued in a subsequent report, and used the information obtained
during that audit in this review.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATION

Contrary to Federal requirements and the Medicare contracts’ pension segmentation
requirements, GHI did not update the Medicare segment pension assets from January 1, 2008, to
January 1, 2009. We updated the Medicare segment pension assets from January 1, 2008, to
January 1, 2009, and identified Medicare segment pension assets of $489,218 as of
January 1, 2009. Accordingly, GHI understated the Medicare segment pension assets by
$489,218.

Appendix A presents details on the Medicare segment’s pension assets from January 1, 2008, to
January 1, 2009, as determined during our audit. The table below summarizes the audit
adjustment required to update Medicare segment pension assets in accordance with Federal
requirements and the Medicare contracts.

                              Summary of Audit Adjustments
                                                                              Per Audit
  Update of Medicare Segment Assets
    Contributions and Prepayment Credits                                           $447,433
    Transfers                                                                         71,208
    Earnings, Net Expenses                                                          (29,423)
  Under/(Over)statement of Medicare Pension Segment Assets                         $489,218




                                               3
UPDATE OF MEDICARE SEGMENT PENSION ASSETS

GHI did not comply with the Medicare contracts’ pension segmentation requirements because it
did not update the Medicare segment pension assets from January 1, 2008, to January 1, 2009.

Federal Requirements

The Medicare contracts identify a Medicare segment as:

       . . . any organizational component of the contractor, such as a division,
       department, or other similar subdivision, having a significant degree of
       responsibility and accountability for the Medicare contract/agreement, in which:

              1. The majority of the salary dollars is allocated to the Medicare
                 agreement/contract; or,

              2. Less than a majority of the salary dollars are charged to the Medicare
                 agreement/contract, and these salary dollars represent 40% or more of
                 the total salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
segment shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires
that the asset base be adjusted by contributions, permitted unfunded accruals, income, benefit
payments, and expenses. The CAS requires expenses to be allocated among the segments in
proportion to the investment earnings. In addition, CAS 413.50(c)(8) requires an adjustment to
be made for transfers (participants who enter or leave the segment) if the transfers materially
affect the segment’s ratio of pension plan assets to actuarial accrued liabilities.

For plan years beginning on or before March 30, 1995, the CAS requires investment income and
expenses to be allocated among segments in proportion to the beginning-of-year asset value. For
plan years beginning after March 30, 1995, the CAS requires investment income and expenses to
be allocated among segments based on the ratio of the segment’s weighted average value (WAV)
of assets to Total Company WAV of assets.

Medicare Segment Pension Assets Not Updated

GHI did not update the Medicare segment pension assets from January 1, 2008, to
January 1, 2009, as required by the Medicare contracts. Using information provided by GHI and
its actuarial consulting firms, we calculated the update of the Medicare segment pension assets
from January 1, 2008, to January 1, 2009. We determined the Medicare segment assets to be
$489,218 as of January 1, 2009. Accordingly, GHI understated the Medicare segment pension
assets by $489,218.




                                               4
RECOMMENDATION

We recommend that GHI recognize $489,218 as the Medicare segment pension assets as of
January 1, 2009.

AUDITEE COMMENTS

In written comments on our draft report, GHI agreed with our recommendation.

GHI’s comments are included in their entirety as Appendix B.




                                              5
APPENDIXES
                                                                                                                      Page 1 of 1


                APPENDIX A: STATEMENT OF MARKET VALUE OF PENSION ASSETS FOR THE
                  EMBLEMHEALTH SERVICES COMPANY, LLC, EMPLOYEES' RETIREMENT
                          PLAN AT GROUP HEALTH INCORPORATED FOR THE
                            PERIOD OF JANUARY 1, 2008, TO JANUARY 1, 2009


                 Description                            Total Company             “Other” Segment           Medicare Segment

   Assets September 1, 2008                   1/            $127,638,149               $127,638,149                            $0

   Contributions                              2/               15,712,164                 15,264,731                     447,433
   Earnings                                   3/              (27,645,842)               (27,617,670)                     (28,172)
   Benefit Payments                           4/               (2,613,997)                (2,613,997)                           0
   Expenses                                   5/               (1,227,819)                (1,226,568)                      (1,251)
   Transfers                                  6/                        0                     (71,208)                     71,208

   Assets January 1, 2009                                   $111,862,655               $111,373,437                     $489,218
   Per GHI                                    7/            $111,862,655               $111,862,655                            $0
   Asset Variance                             8/                       $0                 ($489,218)                     $489,218


FOOTNOTES

 1/ On January 1, 2008, Group Health Incorporated (GHI) employees were given an opportunity to elect participation in the
    EmblemHealth Services Company, LLC, Employees’ Retirement Plan. All of the active Medicare employees elected to
    change their participation, beginning on January 1, 2008, with zero accrued liability and assets in the EmblemHealth Services
    Company, LLC, Employees’ Retirement Plan. The assets and liabilities accrued prior to January 1, 2008, for these employees
    remained with the GHI Cash Balance Plan. Prior to January 1, 2008, there was no Medicare segment in the EmblemHealth
    Services Company, LLC, Employees’ Retirement Plan. The amounts shown for the “Other” segment represent the difference
    between the Total Company and the Medicare segments. All pension assets in this appendix are shown at market value.

 2/ We obtained Total Company contribution amounts from the Department of Labor/Internal Revenue Service Forms 5500
    (DOL/IRS 5500). We allocated Total Company contributions to the Medicare segment based on the ratio of the Medicare
    segment funding target divided by the Total Company funding target. Contributions in excess of the funding targets were
    treated as prepayment credits and accounted for in the “Other” segment until needed to fund pension costs in the future.

 3/ We obtained investment earnings from DOL/IRS 5500s. We allocated investment earnings based on the ratio of the segment’s
    weighted average value (WAV) of assets to Total Company WAV of assets as required by the Cost Accounting Standards
    (CAS).

 4/ We based the Medicare segment’s benefit payments on actual payments to Medicare retirees. We obtained the benefit
    payments from documents provided by GHI.

 5/ We allocated administrative expenses to the Medicare segment in proportion to investment earnings as required by the CAS.

 6/ We identified participant transfers between segments by comparing valuation data files provided by GHI. Asset transfers
    were equal to the actuarial liability determined under the accrued benefit cost method in accordance with the CAS.

 7/ We obtained total asset amounts as of January 1, 2009, from documents prepared by GHI’s actuarial consulting firms.

 8/ The asset variance represents the difference between our calculation of Medicare segment pension assets and GHI’s
    calculation of the Medicare segment pension assets.
                  APPENDIX B: AUDITEE COMMENTS




OHI
February 17,2012

Mr. Patrick J. Cogley
Regional Inspector General for Audit Services
Office of Inspector General
Office of Audit Services
Region VII
601 East Jih Street, Room 0429
Kansas City, Missouri 64106


       Re:       OIG Report Number: A-07-12-00378
                 Revie111 of the Pension Segmentation Requirements for tile EmblemHealtll Services
                 Company, LLC, Employees' Retiremettt Platt at Group Healtll Incorporated for tile period
                 of Jattuary 1, 2008 to January 1,2009.


Dear Mr. Cogley:

This response is in regard to the subject report. GHI and its actuaries have carefully reviewed the report
and supporting work papers. As recommended by the OIG, GHI agrees to recognize $489,218 as the
Medicare segment pension assets as of January I , 2009.

Please let me know if you have any questions regarding this letter.


Sincerely,


[
Vice President




                                   Group Heaftfl, lucorporated
                               25 Broadway, New York, NY 10004-1010
                                       www.ghimedicare.com
